POSTAL REGULATORY COMMISSION

 OFFICE OF INSPECTOR GENERAL




SEMIANNUAL REPORT TO CONGRESS

 April 1, 2008 through September 30, 2008
                                 TABLE OF CONTENTS



                                                                                                PAGE

Introduction........................................................................................ 2

Activities of the Office of Inspector General .................................... 3

Inspector General Act Reports .......................................................... 5

Contact Information........................................................................... 8
INTRODUCTION
   THE POSTAL REGULATORY COMMISSION
       The Postal Regulatory Commission is an independent federal agency established
       (as the Postal Rate Commission) by the Postal Reorganization Act of 1970. From
       its establishment through the enactment of the Postal Accountability and
       Enhancement Act (PAEA) of 2006, the Commission primarily received United
       States Postal Service proposals for domestic mail rates and classifications,
       presided over litigation regarding those proposals, and recommended rates and
       classifications to the Board of Governors of the United States Postal Service.
       PAEA, which was enacted on December 20, 2006, re-designated the Commission,
       expanded the Commission’s jurisdiction to include international mail and service
       standards, and charged the Commission with implementing a new system of
       postal rate regulation.

       During the reporting period, the Commission continued to make progress toward
       implementing PAEA. The Commission issued notices of proposed rulemaking on
       complaints, periodic reporting, and competitive product accounting, and held
       public proceedings on a study on universal service and postal monopolies. In
       April 2008, the Commission launched a new website.

       The Postal Regulatory Commission consists of five Commissioners who are
       appointed for six-year terms by the President, with the advice and consent of the
       Senate. No more than three of the Commissioners can be members of the same
       political party. The President designates one of the Commissioners to serve as
       Chairman, and the Commissioners, by majority vote, select one Commissioner to
       serve as Vice Chairman. In June 2008, Nanci E. Langley was sworn in as a
       Commissioner, bringing the Commission up to its full complement of five.

   THE OFFICE OF INSPECTOR GENERAL
       The Commission established the Office of Inspector General (OIG) on June 15,
       2007 and hired the first Inspector General on June 23, 2007. During the
       reporting period, OIG had two full-time employees—the Inspector General and
       an administrative assistant. During the reporting period, OIG was assisted in the
       conduct of its audits by three auditors on separate details from the United States
       Postal Service Office of Inspector General.




                                        2
ACTIVITIES OF THE OFFICE OF INSPECTOR GENERAL
   AUDIT ACTIVITIES
        Under the Inspector General Act of 1978 as amended (IG Act), the Inspector
        General provides policy direction and conducts, supervises and coordinates
        audits relating to programs and operations of the Postal Regulatory Commission.

        During the reporting period, OIG completed one final audit report and initiated
        one additional audit. These are summarized below:

        INTERNAL CONTROLS OVER MISCELLANEOUS RECEIPTS
        AUDIT REPORT AR-08-01A-02

        As a result of information developed during an audit of the Commission’s
        imprest fund (AR-08-01A-01), OIG initiated an audit of the Commission’s
        controls over miscellaneous receipts, which include rebates from purchases,
        refunds, and various other funds collected by the Commission. OIG found that
        the Commission’s internal controls over these receipts were inadequate. As a
        result, there was no assurance that funds owed the Commission were collected,
        and receipts totaling $200,658.74 were allowed to accumulate in two checking
        accounts without adequate oversight and with increasing risk of misuse. At
        OIG’s recommendation, the Commission returned these funds to the Postal
        Service Fund.

        FISMA COMPLIANCE AND INFORMATION SECURITY CONTROLS

        During the reporting period, OIG initiated an audit of the Commission’s
        compliance with the Federal Information Security Management Act and to
        determine whether information security control issues in a prior audit (AR-07-
        02A-01) had been adequately addressed. This audit was ongoing at the close of
        the reporting period.

   INVESTIGATIVE ACTIVITIES
        Under the IG Act, OIG receives and investigates allegations of fraud, waste,
        abuse and misconduct within Commission programs and operations. OIG
        investigations can give rise to administrative, civil and criminal penalties.

        In order to facilitate reporting of allegations, OIG maintains a hotline (see
        “Contacting the Office of Inspector General,” Page 8).

        During the reporting period, OIG received twenty hotline contacts, mainly via



                                         3
     electronic mail and telephone. Many were complaints regarding the United
     States Postal Service, which OIG forwarded for action.

     OIG did not refer any cases to prosecutors during the reporting period.

INSPECTION AND EVALUATION
     At the request of Chairman Danny K. Davis of the House Subcommittee on
     Federal Workforce, Postal Service, and the District of Columbia, OIG initiated a
     review of the role of a contractor in preparing the Commission’s study of the
     Postal Service’s universal service obligation and monopolies. That review was
     ongoing at the close of the reporting period.

OTHER ACTIVITIES
     REGULATORY REVIEW

     Under Section 4(a)(2) of the IG Act, OIG reviews drafts of proposed
     Commission rules and regulations. During the reporting period, OIG provided
     comments regarding draft Commission regulations and policies, including
     revised procedures for adjudicating complaints against the Postal Service, revised
     information security management policies, and a revised alternative work
     schedule policy. Due to an administrative error, OIG was not provided the
     opportunity to review the Commission’s proposed regulations regarding Postal
     Service competitive product accounting and the computation of an imputed
     income tax on competitive products.

     LIAISON ACTIVITIES

     The Inspector General is a member of the Executive Council on Integrity and
     Efficiency, which consists primarily of Inspectors General established under
     section 8(G) of the IG Act. During the reporting period, the Inspector General
     attended all but one of the ECIE’s monthly meetings and an annual joint
     conference between the ECIE and the President’s Council on Integrity and
     Efficiency. The Inspector General also participated in meetings of a working
     group examining transition issues raised by proposed amendments to the IG Act.




                                     4
                INSPECTOR GENERAL ACT REPORTS

Section 5(a) of the IG Act requires that the following information be included in semiannual
reports.




   REFERENCE                       REPORTING REQUIREMENT                             PAGE


   Section 5(a)(1)   Significant problems, abuses or deficiencies identified          None

   Section 5(a)(2)   Recommendations for corrective action                            None

   Section 5(a)(3)   Open recommendations from previous semiannual reports            None

   Section 5(a)(4)   Matters referred to prosecutors, disposition                     None

   Section 5(a)(5)   Reports of information or assistance unreasonably withheld       None

   Section 5(a)(6)   Listing by subject of audit reports issued                      Page 3

   Section 5(a)(7)   Summary of particularly significant reports                     Page 3

   Section 5(a)(8)   Statistical table—questioned costs                              Table 1

   Section 5(a)(9)   Statistical table—recommendations that funds be put to          Table II
                     better use

  Section 5(a)(10) Audit reports from prior reporting periods for which no            None
                   management decision had been made

  Section 5(a)(11) Significant revised management decisions                           None

  Section 5(a)(12) Significant management decisions with which the IG is in           None
                   disagreement

  Section 5(a)(13) Information under section 05(b) of the FFMIA                       None




                                                5
                                         Table 1

            AUDIT REPORTS WITH QUESTIONED COSTS


                                  Number        Number
                                    of            of          Questioned   Unsupported
                                  Reports   Recommendations     Costs         Costs

A.   For which no management
     decision has been made by       0             0              0             0
     the commencement of the
     reporting period.

                                     0             0              0             0
B.   Which were issued during
     the reporting period.


                Subtotals (A+B)      0             0              0             0


C.   For which a management
     decision was made during        0             0              0             0
     the reporting period.


D.   For which no management
     decision has been made by
                                     0             0              0             0
     the end of the reporting
     period.


E.   For which no management
     decision was made within        0             0              0             0
     six months of issuance.




                                             6
                                          Table II

       AUDIT REPORTS WITH RECOMMENDATIONS THAT
              FUNDS BE PUT TO BETTER USE


                                            Number        Number
                                              of            of          Dollar Value
                                            Reports   Recommendations

A.   For which no management decision
     has been made by the commencement           0           0               0
     of the reporting period.


B.   Which were issued during the
                                                 1           3          $200,658.74
     reporting period.


                        Subtotals (A+B)          1           3          $200,658.74


C.   For which a management decision
                                                                        $200,658.74
     was made during the reporting               1           3
     period.


D.   For which no management decision
     has been made by the end of the             0           0               0
     reporting period.


E.   For which no management decision
     was made within six months of               0           0               0
     issuance.




                                             7
                     CONTACTING THE
               OFFICE OF INSPECTOR GENERAL


In our mission to detect and prevent waste, fraud and abuse and to
promote efficiency and economy at the Postal Regulatory Commission,
the Office of Inspector General relies on information provided by PRC
staff and the general public.

Contact OIG to report illegal or wasteful activities or to receive copies
of OIG reports:

                               Telephone:
                           202-789-6817

                                 E-Mail:
                         prc-ig@prc.gov

                                Internet:
                    http://www.prc.gov/oig

                                  Mail:
                      P.O. Box 50264
                    Washington, DC 20091

 IDENTITIES OF WRITERS AND CALLERS ARE PROTECTED TO THE FULL EXTENT
                             OF THE LAW.



                                     8
